Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




          MEDICARE COMPLIANCE
               REVIEW OF
          VIA CHRISTI HOSPITAL
          FOR CALENDAR YEARS
             2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                        July 2013
                                                      A-07-11-01099
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for inpatient costs associated
with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
sampled claims for inpatient and outpatient services.

Via Christi Hospital (the Hospital) is a 759-bed acute care hospital located in Wichita, Kansas.
Medicare paid the Hospital approximately $219 million for 21,840 inpatient and 47,374
outpatient claims for services provided to Medicare beneficiaries during calendar years (CY)
2009 and 2010 based on CMS’s National Claims History data.

Our audit covered $1,518,679 in Medicare payments to the Hospital for 67 claims that we
judgmentally sampled as potentially at risk for billing errors. These claims consisted of 66
inpatient claims and 1 outpatient claim with dates of service in CYs 2009 and 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on sampled claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 39 of the 67 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 28 claims, resulting in net overpayments totaling
$170,440 for CYs 2009 and 2010. Specifically, 27 inpatient claims had billing errors, resulting
in net overpayments totaling $164,364, and 1 outpatient claim had a billing error, resulting in an
overpayment of $6,076. These errors occurred primarily because the Hospital did not have
adequate controls to prevent incorrect billing of Medicare claims within the selected risk areas
that contain errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $170,440, consisting of $164,364 in net overpayments
       for the 27 incorrectly billed inpatient claims and the overpayment of $6,076 for the
       incorrectly billed outpatient claim, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital agreed with part of our first
recommendation and described actions that it had taken to address our second recommendation.

The Hospital disagreed with our findings on 15 inpatient claims, consisting of $89,800 in
questioned costs, in which we stated that the Hospital should have billed the claims as
outpatient or as outpatient with observation services. (In its written comments, the Hospital
disagreed with 16 inpatient claims, but in subsequent communications, it clarified that it
disagreed with only 15 of these claims.) To support that it correctly billed these claims as
inpatient services, the Hospital provided radiology and laboratory reports that our medical
review contractors did not review and results from an independent review performed by a
physician advisory firm that the hospital engaged. Finally, the Hospital stated that our medical
review contractors may not have correctly applied Medicare guidance.

For the remaining 13 incorrectly billed claims, the Hospital agreed with our findings and said
that it had either already refunded or would refund a total of $80,640.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital's comments, we maintain that our findings and recommendations
are valid.

Regarding the radiology and laboratory reports that our independent medical review contractor
did not review, we verified that the Hospital included results from these reports in the medical


                                                ii
records. Accordingly, we did not separately forward the additional reports to our contractor.
Our contractor examined all of the medical records and documentation originally submitted
(including results from the radiology and laboratory reports), and carefully considered this
information to determine whether the Hospital billed the inpatient claims according to Medicare
requirements.




                                               iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Claims at Risk for Incorrect Billing ................................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Via Christi Hospital .......................................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................4
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrect Diagnosis-Related Groups ..............................................................................5

      BILLING ERRORS ASSOCIATED WITH AN OUTPATIENT CLAIM
        INVOLVING A MANUFACTURER CREDIT FOR A REPLACED
        MEDICAL DEVICE NOT REPORTED ..........................................................................6

      RECOMMENDATIONS ......................................................................................................6

      AUDITEE COMMENTS…...................................................................................................7

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................7

      APPENDIXES

             A: RESULTS OF REVIEW BY RISK AREA

             B: AUDITEE COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
       •    inpatient short stays,

       •    inpatient claims paid in excess of charges,

       •    inpatient claims billed with high severity level DRGs,

       •    inpatient psychiatric facility interrupted stays, and

       •    outpatient manufacturer credits for replaced medical devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for sampled
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” In addition, sections
1815(a) and 1833(e) of the Act preclude payment to any provider of services or other person
without information necessary to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Via Christi Hospital

Via Christi Hospital (the Hospital) is a 759-bed acute care hospital located in Wichita, Kansas. 3
Medicare paid the Hospital approximately $219 million for 21,840 inpatient and 47,374
outpatient claims for services provided to Medicare beneficiaries during calendar years (CY)
2009 and 2010 based on CMS’s National Claims History data.




3
    The Hospital has more than one facility in Wichita. We reviewed the facility on St. Francis Street.


                                                            2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on sampled claims.

Scope

Our audit covered $1,518,679 in Medicare payments to the Hospital for 67 claims that we
judgmentally sampled as potentially at risk for billing errors. These claims consisted of 66
inpatient claims and 1 outpatient claim with dates of service in CYs 2009 and 2010.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
used medical review on a sampled number of claims to determine whether the services were
medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient claims sampled for review because our objective did not require an understanding of
all internal controls over the submission and processing of claims. We established reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during August 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;

   •    obtained information on known credits for replaced medical devices from the device
        manufacturers for CYs 2009 and 2010;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    judgmentally sampled 67 claims (66 inpatient and 1 outpatient) for detailed review;



                                                 3
   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been canceled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   used an independent contractor to determine whether 24 claims met medical necessity
       requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials on November 27, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 39 of the 67 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 28 claims, resulting in net overpayments totaling
$170,440 for CYs 2009 and 2010. Specifically, 27 inpatient claims had billing errors, resulting
in net overpayments totaling $164,364, and 1 outpatient claim had a billing error, resulting in an
overpayment of $6,076. These errors occurred primarily because the Hospital did not have
adequate controls to prevent incorrect billing of Medicare claims within the selected risk areas
that contain errors. For the results of our review by risk area, see Appendix A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 27 of the 66 sampled inpatient claims that we
reviewed. These errors resulted in net overpayments totaling $164,364.




                                                 4
Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.”

According to Chapter 1, section 10, of the CMS Benefit Policy Manual, factors that determine
whether an inpatient admission is medically necessary include:

    •   the severity of the signs and symptoms exhibited by the patient;

    •   the medical predictability of something adverse happening to the patient;

    •   the need for diagnostic studies that appropriately are outpatient services (i.e., their
        performance does not ordinarily require the patient to remain at the hospital for 24
        hours or more) to assist in assessing whether the patient should be admitted; and

    •   the availability of diagnostic procedures at the time when and at the location
        where the patient presents.

The Benefit Policy Manual also states that admissions of particular patients are not covered or
noncovered solely on the basis of the length of time the patient actually spends in the hospital.

For 21 of 66 sampled inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or as outpatient with observation
services. For example, in one case, our medical reviewer said that “the services ordered were of
the intensity that could have been safely provided at the observation level.”

These errors occurred because the Hospital did not have adequate controls to ensure that it billed
Medicare correctly. As a result of these errors, the Hospital received overpayments totaling
$110,700. 4

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2,
of the Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 6 of 66 sampled inpatient claims, the Hospital submitted claims to Medicare with incorrect
DRGs. In one case, the Hospital used the DRG for cardiac defibrillator implant without cardiac

4
 The Hospital may bill Medicare Part B for some services related to some of these incorrect Medicare Part A
claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor before
we prepared our report for issuance.


                                                        5
catheter with major complication/comorbidity rather than using the DRG for cardiac defibrillator
implant without cardiac catheter without major complication/comorbidity.

   •   For five of the six claims, the Hospital identified the errors. For these claims, the
       Hospital attributed the incorrect DRGs to human error in coding diagnosis codes and
       procedure codes for highly complex medical cases with interrelated disease processes,
       and to conflicting clinical information.

   •   For the remaining claim, our medical reviewer determined that the medical record did not
       support the submission or reimbursement of the DRG.

As a result of these errors, the Hospital received net overpayments totaling $53,664.

BILLING ERRORS ASSOCIATED WITH AN OUTPATIENT CLAIM
INVOLVING A MANUFACTURER CREDIT FOR A REPLACED
MEDICAL DEVICE NOT REPORTED

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier -FB and reduced charges on a claim that includes a procedure code for the insertion of a
replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

For the one sampled outpatient claim, the Hospital received full credit for a replaced medical
device but did not report the -FB modifier and reduced charges on its claim. The Hospital stated
that this error occurred because it did not have adequate controls to report the appropriate
modifiers and charges to reflect credits received from manufacturers. As a result of this error,
the Hospital received an overpayment of $6,076.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $170,440, consisting of $164,364 in net overpayments
       for the 27 incorrectly billed inpatient claims and the overpayment of $6,076 for the
       incorrectly billed outpatient claim, and

   •   strengthen controls to ensure full compliance with Medicare requirements.


                                                   6
AUDITEE COMMENTS

In written comments on our draft report, the Hospital agreed with part of our first
recommendation and described actions that it had taken to address our second recommendation.

The Hospital disagreed with our findings on 15 inpatient claims, consisting of $89,800 in
questioned costs, in which we stated that the Hospital should have billed the claims as
outpatient or as outpatient with observation services. 5 To support that it correctly billed these
claims as inpatient services, the Hospital provided radiology and laboratory reports that our
medical review contractors did not review. The Hospital asserted that information from some
of these reports supported the physicians’ admission decisions. The Hospital added that a
physician advisory firm, which the Hospital engaged to perform an independent review,
concluded that the 15 claims met applicable Medicare inpatient admission criteria. The
Hospital also stated that our medical review contractor “… may have denied claims solely
because the patient did not stay for twenty-four (24) hours post admission, instead of focusing
on the patient’s medical condition and needs at the time of the admission….”

For the remaining 13 incorrectly billed claims, the Hospital agreed with our findings and said
that it had either already refunded or would refund a total of $80,640.

The Hospital’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital's comments, we maintain that our findings and recommendations
are valid.

Regarding the radiology and laboratory reports that our independent medical review contractor
did not review, we verified that the Hospital included results from these reports in the medical
records. Our contractor advised that it would not change its conclusions by separately reviewing
the radiology and laboratory reports. Accordingly, we did not separately forward the additional
reports to our contractor.

Our independent medical review contractor did not deny claims solely because the beneficiary
did not stay for 24 hours after admission. Instead, our contractor examined all of the medical
records and documentation originally submitted (including results from the radiology and
laboratory reports), and carefully considered this information to determine whether the Hospital
billed the inpatient claims according to Medicare requirements.




5
 In its written comments (Appendix B, page 2), the Hospital disagreed with 16 inpatient claims, but in subsequent
communications, it clarified that it disagreed with only 15 of these claims.


                                                         7
APPENDIXES
                          APPENDIX A: RESULTS OF REVIEW BY RISK AREA


                                                                                                   Claims
                                                                                                    With
                                                                                 Value of          Under /        Value of
                                                               Selected          Selected           Over-         Net Over-
                      Risk Area                                Claims            Claims           payments        payments
Inpatient

Short Stays                                                       22             $104,170              20           $91,182

Claims Paid in Excess of Charges                                   5             118,308               2             37,453
Claims Billed With High Severity Level
                                                                  31            1,198,233              5             35,729
Diagnosis-Related Group Codes
Psychiatric Facility Interrupted Stays                             8              89,325               0                   0

 Inpatient Totals                                                 66            $1,510,036             27          $164,364


Outpatient
Manufacturer Credits for Replaced Medical
                                                                   1               8,643               1             6,076
Devices
 Outpatient Totals                                                 1               $8,643              1             $6,076


 Inpatient and Outpatient Totals                                  67            $1,518,679             28          $170,440

      Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
      outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
      billing errors we found at Via Christi Hospital. Because we have organized the information differently, the
      information in the individual risk areas in this table does not match precisely with this report’s findings.
                                                                                                                       Page 1 of 2



                  APPENDIX B: AUDITEE COMMENTS




       CERTIFIED MAIL
                                                                                  ~(Via christi
March 13,2013                                                                                             HEALTH

Office of Inspector General
Office of Audit Services, Region VII                                                       ... because your life matters
Attn: Mr. Patrick Cogley
601 East 12'h Street, Room 0429                                                                                     00CIMS
Kansas City, MO 64106
                                                                                                                H osp t a ls

                                                                                                           Sen~nr
Re:       Draft Audit Report A-07-11-01099                                                                          Vl tl<tqes



Dear Mr. Cogley:

We are responding to your letter dated January 23, 2013 regarding the U.S. Department of Health
and Human Services, Office of Inspector General ("OIG") draft report entitled Medicare
Compliance Review of Via Christi Hospital for Calendar Years 2009 and 2010 (A-07-1 1-01099)
("Draft Report"). Please note that Via Christi Hospitals Wichita, Inc. ("Via Christi") has 759
operational hospital beds, 32,463 inpatient and 90,983 outpatient Medicare claims, respectively,
for the two-year period subject to the Draft Report; and received total Medicare reimbursement of
over $368 million for those claims.

During the above referenced Compliance Review at Via Christi, the OIG reviewed sixty-six (66)
inpatient claims and one (I) outpatient claim as potentially at risk for billing errors. In the Draft
Report, the OIG suggests that twenty-eight (28) of the sixty-seven (67) claims reviewed did not
comply with Medicare billing requirements. Specifically, the OIG allegedly found that Via
Christi:

•     Incorrectly billed Medicare for twenty-one (21) inpatient stays that Via Christi should have
      billed as outpatient claims or as outpatient claims with observation services;

•     Submitted six (6) inpatient claims with incorrect Diagnosis Related Groups ("DRGs"); and

•     Incorrectly billed Medicare for a single replacement medical device received from a
      manufacturer.

As a result of these errors, the OIG recommended that Via Christi refund $170,440 to the
Medicare contractor and strengthen controls to ensure full compliance with Medicare
requirements.

Via Christi agrees and disagrees, in part, with the OIG's findings. Via Christi agrees with the
OIG's findings that Via Christi inadvertently coded six (6) claims with incorrect DRGs and that
by mistake it billed Medicare for a single replacement medical device. Via Christi already
refunded the appropriate program amounts related to these claims.

Via Christi also agrees that it inadvertently billed Medicare for five (5) inpatient slays that it
should have billed as outpatient claims or as outpatient claims with observation services. Via




                                          Vta Chri,li H0all h. nc.
                    8200 L    orn • Wich ita. KS 67226 • viacltr st'.org •   6 .858 4900
                                                                                                      Page 2 of 2





Office of Inspector General
March 13, 2013
Page 2

Christi is in the process of determining the proper overpayment amounts related to such claims
and will refund those amounts accordingly.

Conversely, Via Christi disagrees with the OIG's findings that Via Christi should have billed the
remaining sixteen (16) inpatient stays as outpatient claims or as outpatient claims with
observation services. Via Christi recently provided the OIG with additional information to
support these inpatient claims. In particular, it came to Via Christi's attention that certain
radiology and laboratory reports for these cases were not originally included in the records, some
of which provided important information supporting physician admission decisions. Via Christi
provided copies of the relevant radiology and laboratory records to the OIG on January 4, 2013.
Via Christi also engaged a national physician advisory firm to perform an independent review by
qualified physicians of the claims in question. Via Christi forwarded to the OIG the results of the
independent review on January 4, 2013, which concluded that the sixteen (16) remaining cases all
met applicable Medicare inpatient admission criteria. Finally, Via Christi understands that the
OIG's reviewers may have denied claims solely because the patient did not stay for twenty-four
(24) hours post admission, instead of focusing on the patient's medical condition and needs at the
time of the admission consistent with applicable Medicare guidance.

Via Christi has implemented comprehensive remedial measures to address the errors identified in
the Draft Report. For example, Via Christi established a detailed verification process to ensure
replacement device credits are properly obtained from the manufacturer and promptly reported.
To address the identified DRG coding errors, Via Christi provided extensive education to
inpatient coding staff that detailed medical record documentation requirements, applicable coding
guidelines, and correct DRG assignment. Likewise, Via Christi also provided extensive
education to staff, residents and physicians regarding proper patient status. To further address
any inpatient status errors, Via Christi also hired an external physician advisory firm to provide
physician review of complex cases when additional support for status determination is needed.
Based on all of these efforts, we believe that Via Christi adequately addressed the billing issues
identified as part of this Compliance Review.

Finally, please note that Via Christi maintains a proactive Corporate Responsibility Program
("CRP") with rigorous auditing and monitoring functions to ensure the accuracy of our Medicare
claims and compliance with all program regulations and billing requirements. If any errors are
detected through these CRP functions, Via Christi promptly refunds any identified overpayments
to the appropriate payers.

If you have any questions regarding this matter, please feel free to contact me at (316) 858-4978.

Sincerely,

~MfL f~
Sara Powers
Interim Vice President, Corporate Responsibility
Via Christi Health
